     Department of Homeland Security

     ��������������������������



    DHS’ Watchlisting Cell’s Efforts To Coordinate 

            Departmental Nominations 


                     (Redacted) 





OIG-13-105                                    July 2013

                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov

                                        July 22, 2013
 
MEMORANDUM FOR:              The Honorable William E. Tarry Jr. 
                             Acting Under Secretary 
                             Office of Intelligence and Analysis 
 
FROM:                        Charles K. Edwards 
                             Deputy Inspector General 
 
SUBJECT:	                      DHS’ Watchlisting Cell’s Efforts To Coordinate 
                               Departmental Nominations 
                                
Attached for your information is our final report, DHS’ Watchlisting Cell’s Efforts To 
Coordinate Departmental Nominations – Sensitive Security Information.  We have also 
included a redacted version of the report, which will be published on our website.   We 
incorporated the formal comments from the Office of Intelligence and Analysis (I&A) in the 
final report.  
 
The report contains ten recommendations aimed at improving the Department’s 
Watchlisting Cell.  I&A concurred with all ten recommendations.  Based on information 
provided in I&A’s response, we consider all ten recommendations to be open and resolved. 
 
As prescribed by the Department of Homeland Security Directive 077‐01, Follow‐Up and 
Resolutions for the Office of Inspector General Report Recommendations, within 90 days of 
the date of this memorandum, please provide our office with a written response that 
includes your (1) agreement or disagreement, (2) corrective action plan, and (3) target 
completion date for each recommendation.  Also, please include responsible parties and 
any other supporting documentation necessary to inform us about the current status of the 
recommendation.  Until your response is received and evaluated, the recommendations will 
be considered resolved and open. 
 
Consistent with our responsibility under the Inspector General Act, we are providing copies 
of our report to appropriate congressional committees with oversight and appropriation 
responsibility over the Department of Homeland Security.  We will post the redacted 
version of the report on our public website. 
 
Please call me with any questions, or your staff may contact Deborah L. Outten‐Mills, Acting 
Assistant Inspector General for Inspections, at (202) 254‐4015, or Marcia Moxey Hodges, 
Chief Inspector, at (202) 254‐4202. 
 
Attachment                                  


                                                 
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


Table of Contents
Executive Summary............................................................................................................. 1 


Background ......................................................................................................................... 2 


Results of Review ................................................................................................................ 8 


           DHS Has Centralized Its Watchlisting Process Within the WLC, But Some 

           Components Continue To Nominate Through External Partners........................... 8 


           Additional Performance Metrics and Streamlined Operations Are Needed

           To Measure and Improve Timeliness, Effectiveness, and Efficiency.................... 11 

           Recommendations ................................................................................................ 15 

           Management Comments and OIG Analysis .......................................................... 15 


           WLC’s Quality Assurance Process Ensures Complete and Accurate Products, But 

           It Is Duplicative and Hinders Timeliness ............................................................... 16 

           Recommendations ................................................................................................ 18 

           Management Comments and OIG Analysis .......................................................... 18 


           WLC Coordinated Nomination Policies and Procedures With DHS Components, 

           But Communication Could Be Improved .............................................................. 20 


           WLC Did Not Coordinate or Communicate Its Decentralization Plan With DHS 

           Operational Components Effectively.................................................................... 21 

           Recommendation.................................................................................................. 26

           Management Comments and OIG Analysis ......................................................... 26 


           Procedures For Training, Quality Assurance, and Oversight Programs

           Are Needed ........................................................................................................... 27 

           Recommendations ................................................................................................ 28 

           Management Comments and OIG Analysis .......................................................... 29 


           WLC Needs Sustainability and Resource Allocation Plans .................................... 30

           Recommendations ................................................................................................ 32 

           Management Comments and OIG Analysis .......................................................... 32 


           Conclusion ............................................................................................................. 33 





www.oig.dhs.gov                                                                                                      OIG-13-105
                           OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


Appendixes

       Appendix A:   Objectives, Scope, and Methodology ............................................ 34 

       Appendix B:   Recommendations......................................................................... 36 

       Appendix C:   Management Comments to the Draft Report ............................... 38 

       Appendix D:   Roles of Components Involved In Watchlisting............................. 45 

       Appendix E:   Watchlisting Legal Authorities ....................................................... 47 

       Appendix F:   DHS Data Systems Used by Watchlist Analysts.............................. 50 

       Appendix G:   Timeliness Standards...................................................................... 51 

       Appendix H:   Major Contributors to This Report................................................. 52 

       Appendix I:   Report Distribution ........................................................................ 53 


Abbreviations
       ACS            Automated Case Support System
       CBP            U.S. Customs and Border Protection
       CRCL           Civil Rights and Civil Liberties
       DHS            Department of Homeland Security
       E.O.           Executive Order
       FBI            Federal Bureau of Investigation
       FY             fiscal year
       HSIC           Homeland Security Intelligence Council
       HSPD           Homeland Security Presidential Directive
       I&A            Office of Intelligence and Analysis
       ICE            U.S. Immigration and Customs Enforcement
       IDENT          Automated Biometric Identification System
       KST            known or suspected terrorist
       NCTC           National Counterterrorism Center
       NTC-P          National Targeting Center – Passenger
       ODNI           Office of the Director of National Intelligence
       OIG            Office of Inspector General
       OPS            Office of Operations Coordination and Planning
       SCO            Screening Coordination Office
       TIDE           Terrorist Identities Datamart Environment
       TSA            Transportation Security Administration
       TSC            Terrorist Screening Center
       TSDB           Terrorist Screening Database
       USCIS          U.S. Citizenship and Immigration Services
       US-VISIT       U.S. Visitor and Immigrant Status Indicator Technology
       WLC            Watchlisting Cell



www.oig.dhs.gov                                                                                     OIG-13-105
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Executive Summary
The Department of Homeland Security (DHS) interacts with, observes, and gathers
information from individuals during law enforcement, transportation security, and
immigration and border security screening operations. The Department contributes
some of this information to the Federal Government’s watchlisting efforts, which are
used to inform government interaction with U.S. citizens and foreign nationals. In
October 2010, DHS established a Watchlisting Cell in the DHS Office of Intelligence and
Analysis to serve as the coordination point for departmental watchlist nominations. In
April 2012, in response to its growing caseload and limited resources, the Watchlisting
Cell proposed to decentralize its watchlist nomination process by providing watchlist
analyst training and certification to analysts in DHS operational components, and then
delegating to the certified watchlist analysts the authority to submit terrorist
nominations.

We reviewed the Watchlisting Cell to determine whether (1) it is timely, effective, and
efficient in submitting DHS nominations; (2) the information provided to external
partners is complete, accurate, and timely; (3) establishing the Watchlisting Cell has had
an effect on the DHS component nomination process; and (4) the Watchlisting Cell has
developed and communicated effective policies and procedures for coordinating
nomination submissions within DHS. We also reviewed whether the Watchlisting Cell
has developed an effective process for providing nominator certification training, quality
assurance, and the oversight necessary for decentralization, and whether it has
developed an effective methodology for planning and coordinating its resources.

We determined that the Watchlisting Cell has had a positive effect on DHS and the
interagency watchlisting community, as it increased the number and quality of DHS
nominations, and provided oversight, guidance, and required watchlisting overview
training to DHS components. However, it needs to develop performance metrics to
improve its operational processes and to measure the effectiveness of its program
initiatives. In addition, the Watchlisting Cell did not communicate effectively on its
decentralization plan, and needs to determine the effect decentralized execution will
have on the Watchlisting Cell’s caseload and ability to provide oversight. The
Watchlisting Cell operated without an itemized budget or a method for tracking its
expenses, and is not prepared to address increases or fluctuations in its caseload.

We are making ten recommendations to develop performance metrics; streamline
internal procedures; evaluate decentralization effects; develop training, oversight, and
quality assurance processes for decentralization; and develop financial and sustainability
plans for the Watchlisting Cell.




www.oig.dhs.gov                             1                                 OIG-13-105
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


Background 

On September 16, 2003, the President issued Homeland Security Presidential Directive 6
(HSPD-6), Directive on Integration and Use of Screening Information to Protect Against
Terrorism, which directed the U.S. Attorney General to “establish an organization to
consolidate the Government's approach to terrorism screening and provide for the
appropriate and lawful use of Terrorist Information in screening processes.” 1 In response,
the U.S. Attorney General established the Terrorism Screening Center (TSC), which
enables government officials to check individuals against the Federal Government’s
consolidated terrorist watchlist, the Terrorist Screening Database (TSDB). 2

The U.S. Government’s Watchlisting System

The TSDB provides sensitive but unclassified information to authorized users on both
international and domestic terrorists. TSDB information on international terrorists is
obtained from the Office of the Director of National Intelligence’s (ODNI) National
Counterterrorism Center (NCTC) Terrorist Identities Datamart Environment (TIDE). The
NCTC was established by Executive Order 13354 and the Intelligence Reform and
Terrorism Prevention Act of 2004 to implement a 9/11 Commission recommendation
calling for the NCTC to serve as a center for joint operational planning and joint
intelligence. 3 This act further directed that the NCTC will be the central and shared
classified knowledge bank on known or suspected terrorists (KSTs) and international
terrorist groups, as well as their goals, strategies, capabilities, and networks of contacts
and support. 4 The NCTC is the primary U.S. Government organization for analyzing and
integrating all intelligence possessed or acquired by the U.S. Government regarding
terrorism and counterterrorism. 5 However, the tasks of collecting and analyzing
intelligence pertaining exclusively to domestic terrorists, and investigating terrorism
within the United States, fall primarily under the purview of the Federal Bureau of
Investigation (FBI). 6 The FBI uses its Automated Case System (ACS) to support these
efforts.



1
  HSPD-6, Directive on Integration and Use of Screening Information to Protect Against Terrorism (September 

16, 2003).

2
  HSPD-11, Comprehensive Terrorist-Related Screening Procedures (August 27, 2004).

3
  See Final Report of the National Commission on Terrorist Attacks Upon the United States, p. 403. 

4
  HSPD-11 defines a KST as an individual known or reasonably suspected to be or have been engaged in 

conduct constituting, in preparation for, in aid of, or related to terrorism ("suspected terrorists") and 

terrorist activities.

5
  50 U.S.C. § 404o(d)(1).

6
  See 28 U.S.C. §§ 509, 510, 533, and 534; 18 U.S.C. § 2332b(f); Executive Order 12333; 28 CFR § 0.85.





www.oig.dhs.gov                                      2                                        OIG-13-105
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


As appropriate, information maintained in TIDE and ACS is exported to the TSDB. The
term “export” describes the transfer of record information from one database to
another. TSDB information on domestic terrorists is obtained from ACS. To the extent
permitted by law, TIDE and ACS contain both substantive derogatory information and
identifying information such as biometric, biographic, and travel records.7 In addition to
KSTs, TIDE and the TSDB include information on family members and associates who are
not themselves KSTs.

HSPD-6 requires all executive departments and agencies to provide the TSC with
information regarding KSTs, as permitted by law. For example, information may
become available through analysis of information in Federal data systems, by checking
whether a newly identified KST has ever applied for an immigration benefit, or from
information obtained during an interview with a KST at a United States port of entry.

Relevant new and additional information is provided to the NCTC or the FBI for possible
inclusion in TIDE, the TSDB, or ACS as a nomination, modification, enhancement,
addendum, or removal. Nominations are new additions to TIDE, the TSDB, or ACS that
contain information about individuals not previously identified as being associated with
terrorism. Modifications/enhancements/addendums include new or corrected
information about previously identified individuals with records in these data systems.
Removals include TIDE, TSDB, or ACS records for individuals that were misidentified, no
longer meet minimum standards for inclusion on the terrorist watchlist, or information
has been uncovered that supports removal from watchlisting. The NCTC and FBI review
information provided to determine whether it reaches the established threshold for
inclusion in or removal from TIDE, the TSDB, or ACS.

Authorized Federal, State, local, and tribal government officials use TSDB information to
screen individuals for law enforcement, transportation security, and immigration and
border security decision making. When a possible match to a TSDB record occurs during
these interactions, officials must contact the TSC for resolution. The watchlisting
community refers to these interactions as encounters.




7
  HSPD-6 states that integration and use of screening information “shall be implemented in a manner
consistent with the … Constitution and applicable laws, including those protecting the rights of all
Americans.”
8
  TSC, Watchlisting Guidance, (July 2010), Appendix 1. The guidance was updated in March 2013, after
our fieldwork ended.




www.oig.dhs.gov                                    3                                      OIG-13-105
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security




DHS’ Role and Contributions to the Federal Government’s Watchlisting Community

DHS has nine operational components that contribute information to TIDE, TSDB, and
ACS: U.S. Customs and Border Protection (CBP), U.S. Citizenship and Immigration
Services (USCIS), the U.S. Coast Guard, U.S. Immigration and Customs Enforcement
(ICE), the Office of Intelligence and Analysis (I&A), the U.S. Secret Service, the
Transportation Security Administration (TSA), Office of Operations Coordination and
Planning (OPS), and the U.S. Visitor and Immigrant Status Indicator Technology (US­
VISIT) program.9 In addition, I&A and DHS’ Office for Civil Rights and Civil Liberties
(CRCL), the Privacy Office, the Office of the General Counsel, and the Office of Policy
Screening Coordination Office (SCO) share responsibility for ensuring compliance with
Federal laws, regulations, and policies on screening and watchlisting, including privacy,
civil rights and civil liberties protections, and DHS information-sharing policies. I&A and
the Coast Guard are also members of the Intelligence Community.10

DHS operational components contribute information through analysis of DHS data
systems, as well as information gathered during encounters. I&A, OPS, TSA Office of
Intelligence, USCIS Fraud Detection and National Security Directorate, and CBP’s Office
of Intelligence and Investigative Liaison contribute primarily through analysis of
information in DHS and Intelligence Community data systems and intelligence reports.
US-VISIT provides photographic and biographic information from DHS data systems in
addition to biometrics to TIDE for inclusion in the TSDB. CBP, USCIS, Coast Guard, ICE,
Secret Service, and TSA obtain information during encounters, both in person and
through automated matching of information in the TSDB and DHS screening systems
and data subsets. For example, CBP officers at U.S. ports of entry encounter KSTs in

9
  Operational component is used in this report to distinguish components directly involved in individual
nominations, including intelligence components, from those that provide policy and oversight.
In May 2013, the Office of Biometric Identity Management replaced US-VISIT. Because our fieldwork
ended before this reorganization, this report refers to US-VISIT.
10
   The Intelligence Community is defined by the National Security Act, as amended, and Executive Order
(E.O.) 12333, as amended, to include 16 executive-level elements with oversight provided by the Office of
the Director of National Intelligence. 50 U.S.C. § 401a (4), E.O. 12333 § 3.5 (h), and 46 Federal Regulation
59941 (December 4, 1981), as amended. DHS participation is specified in 6 U.S.C. § 101 et seq.




www.oig.dhs.gov                                       4                                       OIG-13-105
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


person, while CBP’s National Targeting Center – Passenger (NTC-P) encounters
individuals through automated screening of travelers seeking to enter or depart from
the United States. TSA’s use of the No Fly and Selectee lists enables automated
identification of individuals who are prohibited from boarding an aircraft, or who should
undergo enhanced screening prior to boarding. Appendix D provides additional
information about the role of DHS components in screening and watchlisting.

Establishing and Operating the DHS Watchlisting Cell

In July 2010, the Intelligence Community published its Watchlisting Guidance to help
departments and agencies that are part of the watchlisting and screening community to
standardize watchlist nominations and screening decisions, and develop procedures to
carry out these activities.11




                       13
                     Before the WLC, DHS did not have a central point of contact for
coordinating departmental watchlist nominations. The WLC was established to submit
all routine DHS-generated international KST nominations to NCTC. As of January 2013,
the WLC was staffed with four full-time contractors, one full-time Federal employee,
and one full-time Federal manager. Because the WLC operates 12 hours each weekday,
in exigent circumstances DHS operational components are able to nominate KSTs to
NCTC or the TSC. Operational components also maintain responsibility for watchlist
nominations related to domestic terrorism. Appendix E summarizes the legal
authorities for DHS’ watchlisting process.

The WLC provides the NCTC with nominations generated from several sources, including
component request nominations and WLC nominations. In addition, the WLC
coordinates with Intelligence Community nominators to update or add subjects to TIDE
when the data source is from a non-DHS department or agency.

       •	 Component Request Nominations: DHS operational components send the WLC
          nominations based on analysis of information in DHS holdings, and information
          gathered from DHS encounters.
11
     TSC, Watchlisting Guidance (July 2010).
12
13
  The National Intelligence Program funds intelligence activities in several Federal departments and
agencies, including DHS and the Central Intelligence Agency. Office of Management and Budget, National
Intelligence Program, Fiscal Year 2012 Budget.
http://www.whitehouse.gov/omb/factsheet_department_intelligence.




www.oig.dhs.gov                                   5	                                     OIG-13-105
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


     •	 WLC Nominations: The WLC reviews and develops nominations from
        information in DHS holdings. Some nominations are based on information that
        DHS components publish following encounters, such as Homeland Intelligence
        Reports and other intelligence reports, reports generated by CBP on individuals
                                                                      14
        denied entry into the United States,                             The remaining
        nominations are based on advanced analysis, reviewing information in DHS data
        systems and classified systems to identify new KSTs or add information to the
        existing KST records.

     •	 Coordinations: DHS officers and intelligence analysts review external Federal
        partner information about KSTs. When officers and analysts determine that this
        information is not already in TIDE, but qualifies for inclusion, a watchlisting
        coordination request is initiated.

Before submitting nominations to the NCTC for inclusion in TIDE, the WLC reviews and
adds information from DHS holdings and equities, including biographic, biometric,
immigration status, travel, law enforcement, and intelligence information. DHS officers,
agents, and analysts maintain information relevant to watchlisting in multiple data
systems listed in appendix F. WLC analysts routinely check as many as 13 of these
systems. 


                                 The NCTC reviews each nomination to determine

whether the information provided meets minimum standards and justifies the WLC’s
requested actions.

In addition to providing nominations to the NCTC, the WLC was established to bring
consistency to DHS’ role in the watchlisting process. The WLC provides required
watchlisting overview training to component officers and analysts, and communicates
Intelligence Community policy and procedure changes to operational components. The
WLC also conducts oversight to ensure that nominations and coordinations satisfy the
Intelligence Community’s threshold for inclusion and protection of rights.




14




www.oig.dhs.gov                             6	                               OIG-13-105
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


Protection of rights is important to DHS, because it nominates to TIDE U.S. Persons,
individuals with protected status, and individuals who are not themselves terrorists. 15
The Federal Government has an obligation to “protect fully the legal rights of all United
States persons, including freedoms, civil liberties, and privacy rights guaranteed by
Federal law.” 16 DHS is also responsible for securing information regarding certain
categories of noncitizens with protected status, such as refugees, asylum seekers,
Violence Against Women Act applicants, and T and U visa holders, about whom certain
information can be shared only in a limited national security or counterterrorism
context. Although protections are limited for KSTs, some of the individuals in TIDE and
the TSDB are family members or associates of KSTs. Finally, DHS is responsible for
offering redress, or timely and fair review of complaints, to identify and correct errors in
TIDE and the TSDB.

In addition to its oversight role, the WLC coordinates DHS watchlisting policies and
practices through DHS’ Watchlisting Working Group. All operational components
involved in watchlisting are members of this working group. DHS offices that provide
guidance and oversight for the watchlisting process, CRCL, Privacy, and SCO, as well as
the Office of the General Counsel, participate in the working group in an advisory role.
A separate organization, the Homeland Security Intelligence Council (HSIC), is DHS’
advisory body that manages departmental intelligence functions, provides senior-level
direction for intelligence activities, and promotes integration efforts. The HSIC is
chaired by the Under Secretary for I&A, and includes the heads of intelligence functions
in DHS operational components.

WLC Efforts To Address Previous Recommendations

In September 2011, we reported on DHS’ watchlisting process. 17 We recommended
that the newly established WLC develop and disseminate policies and procedures to
standardize watchlisting terminology and operations, and limit duplication between
operational components and the WLC. In addition, we recommended reducing reliance

15
   Executive Order 12333 defines a U.S. Person as “a United States citizen, an alien known by the
intelligence element concerned to be a permanent resident alien, an unincorporated association
substantially composed of United States citizens or permanent resident aliens, or a corporation
incorporated in the United States, except for a corporation directed and controlled by a foreign
government or governments.” United States Intelligence Activities, Executive Order 12333 § 3.5(k),
(December 4, 1981), (as amended by Executive Orders 13284 (2003), 13355 (2004) and 13470 (2008)).
https://www.cia.gov/about-cia/eo12333.html.
16
   United States Intelligence Activities, Executive Order 12333 § 1.1(b), (December 4, 1981), (as amended
by Executive Orders 13284 (2003), 13355 (2004) and 13470 (2008)). https://www.cia.gov/about­
cia/eo12333.html.
17
   DHS’ Role in Nominating Individuals for Inclusion on the Government Watchlist and Its Efforts To
Support Watchlist Maintenance (OIG-11-107), September 2011.




www.oig.dhs.gov                                      7                                       OIG-13-105
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


on contract personnel, and that I&A ensure adequate WLC staffing and resources to
conduct encounter package and Homeland Intelligence Report analysis in a timely
manner. Although the WLC completed actions to close these recommendations,
additional challenges remain.


Results of Review
The WLC has had a positive effect on the DHS component nomination process by
developing information and completing nominations from operational components with
limited resources; safeguarding the rights of U.S. Persons, individuals with protected
status, and those who are eligible for redress; and providing guidance and required
watchlisting overview trainings.18 The WLC, however, needs to develop performance
metrics to ensure that its processes are timely, effective, and efficient. WLC officials did
not communicate effectively with DHS’ Watchlisting Working Group on its
decentralization plan, and WLC officials need to evaluate the effect I&A’s plan for
decentralized execution will have on the WLC’s caseload. The WLC also needs to further
develop its watchlist analyst training and certification program, and provide oversight
and quality assurance to implement decentralization. The WLC operated without a
budget or method for tracking its expenses, and needs to develop an effective
methodology for planning and coordinating its resources.

        DHS Has Centralized Its Watchlisting Process Within the WLC, But Some
        Components Continue To Nominate Through External Partners

        The WLC performs a critical role in coordinating DHS watchlist nominations and
        redress, is effective in coordinating nominations with other Federal departments
        and agencies, and provides guidance and required watchlisting overview training
        to DHS operational components. It provides assistance to DHS components with
        limited resources, and performs advanced analysis of information in classified
        systems and DHS holdings. Given the effective partnerships among Federal
        agencies and departments, some DHS operational components coordinate
        watchlist nominations through external agencies and departments, and some


18
  Executive Order 12333 defines a U.S. Person as “a United States citizen, an alien known by the
intelligence element concerned to be a permanent resident alien, an unincorporated association
substantially composed of United States citizens or permanent resident aliens, or a corporation
incorporated in the United States, except for a corporation directed and controlled by a foreign
government or governments.” United States Intelligence Activities, Executive Order 12333 (as amended
by Executive Orders 13284 (2003), 13355 (2004) and 13470 (2008)). https://www.cia.gov/about­
cia/eo12333.html.




www.oig.dhs.gov                                   8                                      OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       provide biometrics and encounter packages directly to the NCTC for inclusion in
       TIDE.

       WLC’s Role Has Had a Positive Effect on DHS’ Watchlisting Process

       The WLC plays a critical role in managing DHS watchlist nominations. It reviews
       DHS nominations to ensure requirements for U.S. Persons are met, individuals
       who are determined not a threat are flagged for review by NCTC and removed
       from TIDE or removed from the TSDB export for DHS screening, and redress
       requests are considered. Although operational components also conduct
       compliance reviews, such as by identifying individuals who should be removed
       from the watchlist, operational priorities may take precedence. The WLC also
       disseminates guidance on Intelligence Community standards, ensures that
       component watchlisting staff receives required watchlisting overview training,
       and responds to DHS operational component requests for guidance.

       WLC analysts develop nominations and coordinations that would otherwise not
       be available to the Intelligence Community. For example, as part of analytical
       efforts, OPS identified new information in DHS data systems for watchlist
       records, including fingerprints and photographs for individuals on the No Fly list.
       In addition, OPS identified KSTs who had not been placed on DHS’ biometric
       watchlist, and provided clarification of U.S. Person status.

                       OPS officials said that the WLC’s capacity to complete the
       additional steps required to forward these nominations for inclusion in TIDE and
       the TSDB is one of I&A’s most important functions. In addition, WLC analysts
       conduct advanced analysis that most DHS components cannot perform because
       of limited access to classified or restricted systems.




       Some DHS Components Coordinate Watchlisting Information Directly With
       External Partners

       DHS operational components continue to forward watchlist nominations to
       external partners when there is a long-standing relationship, which ensures
       information is shared efficiently. Operational components with personnel
       overseas, including the Secret Service, ICE, and USCIS, continue to forward
       watchlist nominations through Department of State embassy staff. Operational




www.oig.dhs.gov                             9                                  OIG-13-105
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


         components that participate in the FBI’s Joint Terrorism Task Forces in the
         United States coordinate resulting watchlist nominations through the FBI. 19 For
         example, Secret Service officials said if they were to encounter a watchlisted
         individual in the United States, they would notify the responsible intelligence
         agency and work directly with the Joint Terrorism Task Forces on any resulting
         investigation. ICE officials said their agents in the United States work primarily
         through the Joint Terrorism Task Forces on nominations. Coast Guard officials
         also said that any information they received through participation in Joint
         Terrorism Task Forces would be shared through the FBI.

         Because DHS does not have an enterprise-wide automated process to provide
         encounter packages and biometric information directly to the Intelligence
         Community, direct exchange is more efficient. As a result, some operational
         components that provided this information directly to the NCTC or TSC before
         the WLC was established continue this practice. For example, USCIS personnel
         are detailed to the NCTC and TSC, and USCIS shares encounter information, such
         as interview notes and copies of documents, through these personnel. CBP’s
         NTC-P provides encounter packages directly to the NCTC according to the
         mandate set forth in HSPD-6 and subsequent agreements. 20 US-VISIT also works
         with the NCTC to provide biometrics for inclusion in TIDE as part of its
         interoperability process.

         In addition, DHS operational components have developed effective informal
         cooperative relationships for submitting nominations, based on partnerships,
         some of which predate DHS. When USCIS identifies a potential KST during
         applicant immigration benefit interviews, it provides the information to ICE. The
         Coast Guard screens passengers and crew on large vessels against law
         enforcement and terrorism information using Coast Guard and CBP data
         systems. Coast Guard officers who are collocated with CBP’s NTC-P then
         coordinate any resulting nominations with CBP. Secret Service officials said that
         CBP assists them by conducting interviews with KSTs at United States ports of
         entry, and that CBP manages any resulting watchlist nominations.

         Although the Coast Guard, ICE, Secret Service, USCIS, and US-VISIT do not
         channel most of their watchlisting activities through the WLC, all are members of


19
   Joint Terrorism Task Forces are small cells of highly trained, locally based investigators, analysts, 

linguists, and other specialists from dozens of U.S. law enforcement and intelligence agencies, led by the 

Department of Justice and FBI, and designed to combine the resources of Federal, State, local, and tribal 

law enforcement. http://www.justice.gov/jttf.

20
   NTC-P has always coordinated removals with NCTC directly, given the nature of imminent encounters.





www.oig.dhs.gov                                      10                                       OIG-13-105
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        DHS’ Watchlisting Working Group or are provided an opportunity to review
        watchlisting guidance. WLC officials said the DHS operational components are
        responsive when the WLC requests information or assistance to complete
        nominations, enhancements, or removal requests. Given limited WLC resources
        and the effectiveness of these long-standing external partnerships, we are not
        making a recommendation to augment these arrangements.

        Additional Performance Metrics and Streamlined Operations Are Needed
        To Measure and Improve Timeliness, Effectiveness, and Efficiency

        The ability to research, analyze, and compile information in multiple DHS
        holdings is one of the WLC’s most valuable contributions to the Intelligence
        Community. Submitting information from DHS holdings is inherently complex.
        WLC analysts must routinely check 5 DHS data systems, and may check as many
        as 13, to compile unclassified biographic, biometric, immigration status, and
        travel information in DHS holdings. WLC analysts must also check this
        information against information in TIDE and other classified and unclassified
        systems. The need to check multiple systems impedes the timeliness,
        effectiveness, and efficiency of WLC nominations; however, the WLC can
        improve its operations by developing performance metrics and identifying and
        addressing processes that are labor intensive and susceptible to human error.

        Additional Indicators Are Needed To Determine WLC Timeliness and
        Effectiveness

        According to the President’s December 2012 National Strategy for Information
        Sharing and Safeguarding, “[s]takeholders should not only measure
        improvements in information sharing and safeguarding processes (e.g.,
        discoverability, timeliness, accuracy, compliance, and oversight), but also
        measure their overall effectiveness (e.g., how shared information helps to
        achieve the mission).”21 The WLC began reporting performance metrics in
        November 2011, primarily to inform operational components on the results of
        component requests. The WLC provides monthly reports on the number of
        component request nominations and coordinations submitted to NCTC, and the
        percent accepted by the NCTC for inclusion in TIDE. The WLC also reports on its
        timeliness in processing these cases.

21
  National Strategy for Information Sharing and Safeguarding, December 2012, p. 9. Information
safeguarding is defined as strengthening the protection of classified and sensitive information, for
example by identifying and preventing unauthorized access and enhancing data system controls and
monitoring.




www.oig.dhs.gov                                    11                                       OIG-13-105
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       The WLC, in consultation with DHS’ Watchlisting Working Group, assigned
       priorities to component request nominations and coordinations based on the
       level of threat represented, and assigned timeliness goals to each priority level.
       The resulting statistics indicate that the WLC had difficulty meeting its timeliness
       goals for component requests: high-priority cases that should have been
       completed in 3 days averaged 4.91 days. Appendix G provides definitions for
       priority levels, as well as additional information on timeliness goals and results.

       Most of the WLC’s caseload is documented in a Tracking Spreadsheet. Although
       the WLC provides monthly statistics on requests for nominations and
       coordinations submitted by DHS operational components, it does not report fully
       on WLC analyst initiatives to develop additional nominations and coordinations
       from review of DHS data systems and published intelligence reports. For
       example, table 1 indicates the WLC’s actual caseload from March to July 2012,
       compared with the caseload it reported in its monthly report to the working
       group. The WLC did not report 30 percent of the nominations and coordinations
       it reviewed. Although many of the unreported cases represent instances in
       which a WLC analyst reviewed an intelligence report and determined that it did
       not contain information relevant to the watchlisting process, these
       determinations should be reflected in WLC caseload statistics.

       The WLC also needs to report consistently on the disposition of its caseload. For
       example, even though its September 2012 monthly statistics reported pending
       intelligence publications and encounter packages, the WLC did not provide an
       update in its October 2012 report. Consistent reporting will enable the WLC to
       assess its accomplishments and resource requirements better.

         Table 1: WLC Actual and Reported Nominations and Coordinations Caseload,
         March Through July 2012




www.oig.dhs.gov                             12                                 OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       The WLC also needs to adopt standard performance metrics to track and report
       its review of intelligence publications, encounter packages, and other DHS
       sources of intelligence information. As of December 2012, for each of these
       caseloads the WLC provides a monthly report on the number pending, the
       number completed, and a cumulative number it refers to as a backlog. When
       the WLC identifies newly published intelligence information, it reports the new
       cases as additions to the cumulative backlog. The WLC needs to establish one
       process for tracking and reporting its backlog, or outstanding cases, and a
       separate process for managing and reviewing newly published intelligence
       information. The WLC also needs to develop a timeliness measure for review of
       newly published information. Standard performance metrics will inform the
       WLC of caseload increases or fluctuations, and its capacity to process new cases
       promptly.

       In addition, the WLC should identify opportunities to track and report
       performance metrics that demonstrate its unique contributions to the
       watchlisting community. The WLC currently conducts analysis of information
       available only in DHS holdings, but does not report on its success in adding this
       information to TIDE and the TSDB. For example, DHS is uniquely positioned to
       collect and share biometric information from in-person KST encounters.
       Although WLC analysts routinely check whether biometrics are available when
       they complete nominations, they do not consistently track or report the number
       of KSTs for whom they have identified new biometric information. WLC analysts
       routinely identify information from unclassified DHS sources, such as a KST’s
       telephone number or address listed on an immigration benefit application that
       may previously have been available only from classified sources. Information
       from unclassified sources can be added to the TSDB to assist screeners and
       investigators in identifying KSTs. In addition, WLC analysts routinely check U.S.
       Person status to ensure appropriate safeguards during terrorism investigations,
       but do not track or report the number of records modified. The WLC should
       consult with internal and external stakeholders, including DHS’ Watchlisting
       Working Group and the NCTC, to identify performance metrics that will
       demonstrate the value of WLC contributions. Measuring the WLC’s unique
       contributions to the watchlisting community can support a business case for
       maintaining or increasing WLC resources.

       Additional Streamlining Is Needed To Improve DHS’ Watchlisting Process
       Efficiency

       The process for preparing DHS nominations is inherently complex, given the
       need to check DHS holdings in multiple unclassified systems and transfer
       unclassified information between classified and unclassified systems. However,


www.oig.dhs.gov                            13                                OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       the WLC’s current nomination process takes an estimated 2 to 4 hours for each
       case, and the WLC needs to address inefficiencies. For example, WLC analysts
       must request assistance from I&A’s information technology staff to transfer an
       unclassified document between classified and unclassified systems. To avoid
       delays, WLC analysts manually cut and paste, or retype, individual data elements
       between systems and into the WLC-developed nominator source form, a process
       that is susceptible to human error. This unclassified form is then transferred to
       the classified system, where each data element is again manually entered into
       the NCTC standard nomination tool. While transferring text information from
       the NCTC standard nomination tool to TIDE is automated, biometric images, such
       as photographs and signatures, must be uploaded manually to TIDE in a separate
       process. Developing performance metrics will enable WLC officials to assess the
       staff costs associated with these manual processes and make informed decisions
       on streamlining processes and reducing human error susceptibility.

       In addition, the WLC’s process for internally managing and tracking its caseload
       has inefficiencies. The WLC has developed a Tracking Spreadsheet to manage its
       caseload and report monthly statistics, which requires WLC analysts to cut and
       paste, or retype data from other sources. There is also a separate internal
       process for managing support documents and adherence to record retention
       requirements, which requires analysts to transfer supporting electronic files and
       documents manually for each nomination among folders on I&A’s internal
       classified computer share drive at several stages. Both processes are labor
       intensive and susceptible to human error. Although the WLC has developed
       specifications to automate transfer of data from the NCTC’s standard nomination
       tool to streamline case tracking and reporting, the project has not been funded.
       Developing performance metrics will enable WLC officials to determine where
       funding automation projects could reduce costs and improve nomination quality
       or timeliness long-term.

       The WLC needs to track and report all of its activities to provide better
       information on increases or fluctuations in its caseload and resource
       requirements. The WLC should also identify, track, and report metrics that
       demonstrate its value to DHS and the watchlisting community. Developing such
       performance metrics could inform decisions on information technology project
       investments to automate some WLC processes. Funding automation projects
       that minimize processes susceptible to human error and improve safeguarding of
       information, particularly information on U.S. Persons and individuals with
       protected status, should receive priority.




www.oig.dhs.gov                           14                                OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Recommendations

       We recommend that the Acting Under Secretary for Intelligence and Analysis:

       Recommendation #1:

       Develop additional performance metrics that document all Watchlisting Cell
       operations accurately and demonstrate program effectiveness.

       Recommendation #2:

       Evaluate current watchlisting processes to identify opportunities to improve
       information sharing and ensure information integrity. At a minimum, this
       evaluation should include measures to streamline processes that are labor
       intensive and susceptible to human error.

       Management Comments and OIG Analysis

       We evaluated I&A’s written comments and have made changes to the report
       where we deemed appropriate. A summary of I&A’s written response to the
       report recommendations and our analysis of the response follows each
       recommendation. A copy of I&A’s response, in its entirety, is included in
       appendix C. NCTC also provided a response, which is included in its entirety in
       appendix C.

       In addition, we received technical comments from departmental components
       I&A, CBP, USCIS, CRCL, Office of the General Counsel, and Office of Biometric
       Identity Management (formerly US-VISIT), as well as NCTC, and incorporated
       these comments into the report where appropriate. I&A concurred with all ten
       recommendations contained in the report. We appreciate the comments and
       contributions made by each entity.

       Management Response: I&A officials concurred with Recommendation 1. In its
       response, I&A said the WLC has captured metrics on production rates since
       December 2010. Component metrics were initially combined with I&A metrics;
       however, current reporting shows production by component. TSA has
       developed and shared an interim tool solution with the WLC, and that tool is
       being adapted to ensure the WLC can document its operations accurately and
       demonstrate program effectiveness. Testing and implementation is anticipated
       to be complete by March 2014.




www.oig.dhs.gov                            15                                OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       OIG Analysis: We consider I&A’s proposed actions partially responsive to the
       intent of this recommendation, which is resolved and open. I&A and TSA are to
       be commended for adapting an automation tool that will document WLC
       operations accurately. To close this recommendation, I&A will also need to
       identify performance metrics that demonstrate the WLC’s effectiveness and
       value to the Intelligence Community. We have provided some examples of
       performance metrics in the text that demonstrate effectiveness.

       Management Response: I&A officials concurred with Recommendation 2. In its
       response, I&A said the WLC and participating Watchlisting Working Group
       members continually evaluate processes and procedures to ensure that methods
       in place are effective and efficient. In 2011 and 2012, the WLC worked with
       Intelligence Community and departmental partners to develop requirements for
       a DHS Watchlisting Enterprise nomination tool. Earlier in 2013, the WLC selected
       a nomination tool and has since taken steps to acquire funding for its
       development. This tool is expected to eliminate most labor intensive activities,
       reduce the potential for human error, and improve visibility. In the meantime,
       TSA has developed and shared an interim tool solution with the WLC that will
       streamline some, but not all, processes by March 2014.

       OIG Analysis: We consider I&A’s proposed actions responsive to the intent of
       this recommendation, which is resolved and open. We will close this
       recommendation when we have reviewed a detailed description of I&A’s
       selected nomination tool for sufficiency and I&A’s request for funding this tool.
       We encourage the WLC to provide information on additional opportunities it has
       identified to improve information sharing and ensure information integrity. In its
       response, NCTC officials stated they want to partner with DHS in implementing
       this recommendation, and we believe NCTC can provide valuable suggestions on
       improving information sharing and ensuring information integrity.

       WLC’s Quality Assurance Process Ensures Complete and Accurate Products, But
       It Is Duplicative and Hinders Timeliness

       The WLC submits high-quality nominations and coordinations to the NCTC. The
       WLC also demonstrates a commitment to meeting Intelligence Community
       standards, and to protecting privacy and civil liberties. However, its three levels
       of quality assurance review of information obtained from DHS operational
       component encounters, intelligence reports, and data systems is duplicative and
       hinders timeliness.




www.oig.dhs.gov                             16                                OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       WLC Nominations Are Complete and Accurate, and Protect Individual Privacy

       Nominations and coordinations that the WLC submits to the NCTC have a
       rejection rate of less than 1 percent. NCTC officials said that the WLC is
       responsive to correcting errors when identified. The WLC reviews component
       requests for nominations and coordinations before submission to the NCTC.
       Some requests, however, are not forwarded to the NCTC because the individual
       was previously nominated by another Federal department or agency or DHS
       component. The WLC also rejects component nominations when the individual
       does not meet Intelligence Community standards, such as when the association
       between an individual and a KST is too tenuous to meet the standard.

       WLC’s internal processes demonstrate a commitment to meeting Intelligence
       Community standards for privacy and civil liberties protections. WLC analysts
       are familiar with the added legal requirements for cases that involve U.S.
       Persons and individuals with protected status. Because these requirements are
       complex, WLC analysts keep this information at their work stations for reference
       and contact General Counsel, Privacy, CRCL, and other appropriate offices as
       necessary. In addition, the WLC’s nomination source form requires analysts to
       verify whether an individual is a U.S. Person or has protected status. WLC
       analysts are familiar with DHS’ data systems, know which data system is the
       most reliable source for information they routinely check, and know whom to
       call in DHS operational components to address questions with interpreting this
       information.

       Quality Assurance Process Hinders WLC Timeliness

       Although the WLC’s quality assurance process promotes accurate and complete
       submissions to the NCTC, it is duplicative and hinders case processing timeliness.
       For example, there are three review levels for all NCTC submissions. At the first
       level, although most nominations are developed from a component request or
       published DHS intelligence report, WLC analysts describe these sources as a
       “starting point,” and routinely recheck each data element provided, as well as
       searching DHS data systems for additional information. At the second level,
       another WLC analyst rechecks each data element to be submitted to the NCTC.
       Of the four full-time WLC contractor analysts, two analysts spend 50 percent of
       their time conducting second-level quality assurance reviews. Because these
       analysts are contractors, a Federal employee performs a third level of review and
       checks each record before submitting it to the NCTC. Although the Intelligence
       Community watchlisting guidance requires quality control measures, quality can
       likely be maintained with less duplication.



www.oig.dhs.gov                            17                                OIG-13-105
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       Better coordination with DHS operational components could reduce some
       duplication of effort. For example, the WLC has had some success encouraging
       components to submit requests using the WLC’s nomination source form. The
       WLC should evaluate whether it is necessary to conduct multiple quality
       assurance checks when the source form is used. The WLC’s remaining caseload
       stems largely from reviewing published DHS component intelligence reports.
       Should the WLC review the process by which operational components develop
       these reports, it may determine sufficient quality controls exist and it is
       unnecessary to recheck all data elements provided. Operational components
       may be willing to provide additional data elements or sourcing information in
       intelligence reports when doing so requires limited time and resources. If the
       WLC is not able to identify opportunities to streamline its quality assurance
       process through closer coordination with operational components, it may be
       necessary to develop a quality assurance process that relies in part on random
       review and feedback from the NCTC quality assurance process.

       Recommendations

       We recommend that the Acting Under Secretary for Intelligence and Analysis:

       Recommendation #3:

       Survey DHS operational components to determine which components have
       sufficient intelligence reporting quality controls to enable the Watchlisting Cell to
       reduce its duplicative quality assurance review.

       Recommendation #4:

       Identify and incorporate procedures and capabilities to streamline the
       Watchlisting Cell’s internal quality assurance process to improve timeliness.

       Management Comments and OIG Analysis

       Management Response: I&A officials concurred with Recommendation 3. In its
       response, I&A said the WLC has demonstrated commitment to ensuring that
       effective procedures are developed and communicated. Beginning in September
       2012 and continuing in 2013, the WLC developed and delivered training to
       Watchlisting Working Group intelligence and vetting analysts in a Watchlist
       Analyst Course. The training course comprised three modules: basic
       watchlisting; a training environment; and advanced concepts. Component
       personnel dedicated time and effort, spanning several months, towards
       certification. In advance of receiving their certification, component analysts had


www.oig.dhs.gov                             18                                 OIG-13-105
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       to demonstrate their knowledge of departmental and Intelligence Community

       policies and procedures.


       In addition to this training and oversight, the WLC, through the Department’s
       Watchlisting Working Group, led discussions on ways for the DHS Watchlisting
       Enterprise to maximize efficiencies and avoid redundant activities. As a result of
       this training, oversight, and communication, departmental production increased,
       and the WLC was able to shift resources to avoid redundancies. It is important
       to note that message releaser activities are not part of the WLC’s quality
       assurance review. I&A said the WLC does not have “three levels of quality
       assurance review” as indicated in the draft report. I&A said that the training and
       certification program has already had the effect called for in the
       recommendation, believes these actions and clarification address the
       recommendation, and respectfully requests it be closed.

       OIG Analysis: We consider I&A’s proposed actions partially responsive to the
       intent of this recommendation, which is resolved and open. The intent of this
       recommendation is to address when a WLC contractor reviews an intelligence
       report published by an operational component, such as a Homeland Intelligence
       Report, and checks each fact provided. To close this recommendation, I&A
       should determine whether its current internal quality assurance process is
       necessary for developing nominations from intelligence reports published by
       operational components. In its response, NCTC officials stated they want to
       partner with DHS in implementing this recommendation, and we believe that
       NCTC can assist the WLC in evaluating whether operational components have
       sufficient intelligence reporting quality controls.

       Management Response: I&A officials concurred with Recommendation 4. In its
       response, I&A said the WLC follows a “two-person rule” for all terrorist
       nomination activities. This rule ensures that the same watchlist analyst does not
       perform consecutive activities in the nomination process. The nomination
       process is labor intensive and the potential for human error is great. Because of
       this, it is necessary for the Department to continue with its current quality
       assurance process. The WLC’s success, low error rate, and protection of civil
       rights and civil liberties are a direct result of this rule. As indicated previously,
       development of new software tools and increased DHS Watchlisting Enterprise
       communication by March 2014 will enable the WLC and DHS Watchlisting
       Enterprise members to improve the timeliness of its nominations and ensure the
       future success of the Department’s watchlisting program.




www.oig.dhs.gov                             19                                  OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       OIG Analysis: We consider I&A’s proposed actions partially responsive to the
       intent of this recommendation, which is resolved and open. Developing
       software tools could limit some vulnerabilities to error. However, assigning a
       Federal employee, rather than a contractor, to provide the second level of
       review necessary for the two-person rule could also streamline the process
       without sacrificing quality. We will close this recommendation when we receive
       an evaluation of procedures and capabilities that were adopted to streamline
       the WLC’s internal quality assurance process.

       WLC Coordinated Nomination Policies and Procedures With DHS Components,
       But Communication Could Be Improved

       The WLC coordinated effectively with DHS’ Watchlisting Working Group to
       develop required overview trainings, and policies and procedures for submitting
       watchlisting nominations. However, bilateral communication to resolve issues
       specific to components needs improvement.

       WLC Coordinates With DHS’ Watchlisting Working Group On Procedures

       The WLC solicited comments from DHS Watchlisting Working Group members on
       its standard operating procedures, the working group charter, and topics for a
       watchlisting overview training required by the Intelligence Community. The WLC
       negotiated with working group members to determine what information would
       be provided in WLC monthly reports. Working group members also responded
       to WLC requests to test some forms and processes it developed.

       Working group members consider monthly meetings constructive, and cite
       information received from these meetings, such as information on DHS data
       systems, changes in Intelligence Community standards and requirements, and
       monthly statistics on nominations. However, bilateral communication to resolve
       issues specific to components has been less effective. For example, several WLC
       analysts said some operational components continue to submit nominations that
       do not meet eligibility criteria. Several component working group participants
       said they were not aware of Intelligence Community or DHS policy that resulted
       in rejected nominations until the policy was explained in a subsequent working
       group meeting. Several component officials said they forward some
       nominations through other Federal departments or agencies, when they
       anticipate the external process will be less cumbersome or more successful than
       working through the WLC. Several USCIS officials said the WLC could provide
       USCIS with more case-specific assistance, such as when there are inconclusive
       matches to TIDE or the TSDB.



www.oig.dhs.gov                           20                               OIG-13-105
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


        WLC Did Not Coordinate or Communicate Its Decentralization Plan With DHS
        Operational Components Effectively

        The WLC developed its decentralization plan without analyzing potential effects
        decentralization would have on the WLC or DHS operational component
        caseloads. It also did not consult DHS offices responsible for providing oversight
        and guidance, including CRCL, SCO, and Privacy, of its plan. Only the operational
        components can determine whether they have the capacity and resources to
        process their own nominations.22 Although CBP’s NTC-P has the capacity to
        assume its own watchlisting caseload and may have the resources to streamline
        and automate its watchlisting nomination process, decentralization effects on
        other DHS operational components are less clear.

        WLC Needs Additional Information To Plan for Decentralization

        The WLC developed its plan to decentralize watchlisting nominations to the
        operational components because its watchlisting nomination caseload increased
        while WLC staff resources remained constant. In FY 2012, the Intelligence
        Community expanded the categories of individuals that could be included in the
        TSDB, which increased DHS’ watchlist nominations. Dedicated WLC funding from
        the National Intelligence Program ended, requiring I&A to fund WLC activities
        and resources from its general budget. In addition, in FY 2013 Intelligence
        Community guidance limited the use of contractors throughout the Federal
        Government’s Intelligence Community.

        The WLC published its decentralization memorandum, and corresponding
        nominator training and certification plan, through the HSIC. Because key DHS
        Watchlisting Working Group members and stakeholders, such as CBP’s NTC-P,
        SCO, and CRCL, are not members of the HSIC, they did not receive notification of
        the decentralization plan. The WLC did not announce the decision to the DHS
        Watchlisting Working Group, and did not solicit comments from the operational
        components. SCO, CRCL, and Privacy, which have oversight and guidance roles
        in watchlisting, were not consulted in advance, and were not asked to assist in
        developing the nominator certification training or the certification program.

        I&A officials said by providing watchlist analyst training and certification training
        to operational components and empowering them to prepare and submit
        watchlisting nominations directly to the NCTC, components could assume

22
  Department of Homeland Security, Delegation To the Under Secretary For Intelligence and
Analysis/Chief Intelligence Officer, DHS Delegation Number 08503 (August 10, 2012).




www.oig.dhs.gov                                   21                                        OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       responsibility for a portion of the WLC’s caseload. While CBP, OPS, USCIS, ICE,
       and TSA participated in the first nominator certification training, their
       commitment and ability to provide watchlisting nominations to the NCTC vary
       widely.

       CBP’s NTC-P officials said the NTC-P has the capacity to assume its own
       watchlisting caseload. NTC-P officers complete most of the steps required for
       nominations in the course of targeting and screening operations, and are
       experienced users of DHS data systems that are checked to complete
       watchlisting nominations. The NTC-P is exploring the technological resources
       necessary to automate interfaces between its case management system and the
       NCTC’s standard nomination tool. Automation would improve the accuracy and
       timeliness of nominations. 



                             Tables 2 and 3 provide additional information on the

       WLC caseload from component requests and other sources. 





www.oig.dhs.gov                            22                                OIG-13-105
                       OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


       Table 2: WLC Caseload by Component (December 2010 to August 2012*) 





www.oig.dhs.gov                        23                            OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       Table 3: WLC Nominations and Coordinations (December 2010 to August
       2012*)




                                             OPS officials said that while they have
       resources to identify new biometric information on KSTs in DHS data systems,
       they cannot divert additional resources to the WLC’s labor-intensive process for
       completing nominations. OPS officials said that after the WLC announced its
       decentralization policy, staff focused on projects that did not require following
       the WLC’s watchlisting nomination procedures, such as identifying KSTs whose
       fingerprints do not appear on the US-VISIT biometric watchlist.




       WLC officials, and some USCIS officials, said that USCIS could provide additional
       watchlisting nominations, including removals from the watchlist through
       supporting the redress system. USCIS officials from the Fraud Detection and
       National Security Directorate indicate USCIS stands committed to continuing
       coordination with the WLC, while developing its own USCIS watchlist function
       support capabilities. As a significant step toward support capabilities, USCIS



www.oig.dhs.gov                            24                                 OIG-13-105
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        currently has two staff that completed course work within the DHS watchlist
        analyst training and certification program. However, USCIS officials from the
        Refugee and Asylum Offices said the USCIS terrorism-related caseload is smaller,
        more complex, and it is likely that most of the derogatory terrorist information
        would fall within the jurisdiction of another Federal department or agency.
        USCIS officials said they would continue to share information with ICE where
        there is no other record owner on KSTs, and will continue to coordinate through
        local Joint Terrorism Task Forces on these issues and through USCIS intelligence
        report publications. 23

        How decentralization will affect ICE’s caseload is not clear.

                                                            ICE officials said they would

        continue to respond to WLC requests for information, and value WLC review of
        intelligence reports, but do not consider developing their own nominations to be
        a priority.

        TSA officials said they would welcome direct responsibility for their caseload,
        and are in a better position to advocate for TSA nominations than the WLC.
        However, TSA analysts do not routinely use most of the DHS data systems that
        the WLC checks in preparing nominations, and may require assistance with
        system access, training, and technical support.

        I&A officials said they would continue to provide nominator certification training
        to all the DHS operational components, and believe components would begin
        submitting additional nominations as more officers and analysts are trained and
        certified. As of January 2013, however, it is not clear whether most DHS
        operational components can assume a significant portion of the WLC’s caseload.
        The WLC should survey operational components to determine which have the
        operational capacity and resources necessary to manage a portion of the WLC’s
        caseload. This information will enable I&A officials to evaluate the effect
        decentralization would have on the WLC’s caseload.

        Recommendation

        We recommend that the Acting Under Secretary for the Office of Intelligence
        and Analysis:

23
  A Joint Terrorism Task Force is a multiple-agency effort led by the Department of Justice and the FBI,
and is designed to promote regional information sharing to combat terrorism by combining Federal, State,
and local law enforcement resources.




www.oig.dhs.gov                                   25                                      OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       Recommendation #5:

       Survey DHS operational components to determine which components have the
       operational capacity and resources to manage a watchlist nomination caseload,
       and determine how the Watchlisting Cell will prioritize the remaining caseload.

       Management Comments and OIG Analysis

       Management Response: I&A officials concurred with Recommendation 5. In its
       response, I&A said all DHS Watchlisting Enterprise members have demonstrated
       an interest and commitment to either performing or supporting watchlisting
       activities, but I&A understands that watchlisting is an additional duty for
       component analysts, and additional time will be required to determine actual
       component capabilities.



                                  I&A said the other participating components are
       continuing to develop their own programs. The WLC will continue its
       Watchlisting Analyst Course and outreach efforts.


                                This model is already showing its value.

                                        In addition to this caseload, the WLC was able to
       reduce its backlog of DHS-published intelligence reports, expand advanced
       analysis on subjects identified in current intelligence as posing a threat to the
       homeland, increase the number of encounter packages exploited, and perform
       quality assurance on nominations submitted by analysts seeking watchlist
       analyst certification.

       OIG Analysis: We consider I&A’s proposed actions responsive to the intent of
       this recommendation, which is resolved and open.




www.oig.dhs.gov                             26                                OIG-13-105
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Procedures For Training, Quality Assurance, and Oversight Programs
           Are Needed

           DHS operational component watchlisting nomination skills and experience vary.
           As a result, the WLC needs to develop an effective process for providing
           component personnel with watchlist analyst training and certification. The WLC
           also needs to develop a process for providing oversight to certified watchlist
           analysts and a quality assurance methodology for reviewing operational
           component nominations.

           Training Should Reflect Skills and Experience of Operational Component
           Personnel

           The WLC should develop appropriate training for DHS operational component
           analysts who will process watchlist nominations. During our review, the WLC
           had completed its first certification training program. Based on comments the
           WLC received from officers and analysts who attended the training, the skills,
           experience, and mission requirements of personnel from operational
           components vary too widely, and training all components in the same course
           would not have the same expected outcome. As a result, WLC officials
           determined that experience using DHS data systems would need to be a course
           prerequisite, because following the WLC’s standard operating procedures
           requires access to and training on multiple, complex DHS data systems. For the
           remaining coursework, some students have prior experience or no operational
           need to be certified or trained on certain modules. For example, officers from
           USCIS and CBP’s NTC-P are already proficient on the Immigration and Nationality
           Act, as amended. 24 OPS officials said training on writing narrative intelligence
           reports was not relevant to their mission, and intelligence analysts in many
           operational components have already received extensive training on Intelligence
           Community requirements for safeguarding information. However, I&A officials
           said that they could not exempt students from certain portions of the training
           based on prior experience or operational need.

           The WLC should coordinate with CBP’s NTC-P as it develops its training
           curriculum. The NTC-P is currently the only operational component prepared to
           assume a substantial caseload—that of the NTC-P—after its officers are trained
           and certified. Because the NTC-P personnel rotate to other CBP assignments,
           frequent training, or a train-the-trainer program, may be necessary to maintain a
           sufficient number of certified CBP analysts. NTC-P officials have raised concerns

24
     8 U.S.C. 1101 et seq.




www.oig.dhs.gov                                27                               OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       that the WLC is not providing a sufficient number of training courses within the
       year, and would prefer a train-the-trainer option for NTC-P staff.

       Oversight and Quality Assurance Programs Need Development

       The WLC needs to develop a plan for performing oversight on DHS operational
       component certified watchlist analysts, and a quality assurance review
       methodology for nominations from DHS operational components. Officials from
       both CRCL and SCO raised concerns about maintaining privacy and civil liberties
       protections and accurate interpretation of information in DHS data systems after
       WLC decentralizes some nominations. The WLC will need to coordinate closely
       with CRCL, SCO, Privacy, and General Counsel to ensure that relevant laws,
       regulations, and policies are integrated into the oversight and quality assurance
       methodology. The oversight and quality assurance program for each operational
       component will need to be adapted to the volume and complexity of
       nominations processed, and to the component’s level of expertise in interpreting
       information in DHS data systems.

       Recommendations

       We recommend that the Acting Under Secretary for Intelligence and Analysis:

       Recommendation #6:

       Develop and document a process with CBP that ensures CBP has a sufficient
       number of trained and certified analysts to maintain CBP’s watchlisting
       operations to include consideration of a train-the-trainer option.

       Recommendation #7:

       Develop and implement, in collaboration with the DHS Offices for Civil Rights and
       Civil Liberties, Privacy, General Counsel, and Screening Coordination Office, an
       oversight plan for certified DHS operational component analysts conducting
       watchlisting operations.

       Recommendation #8:

       Develop and implement a quality assurance review methodology for DHS
       operational components conducting watchlisting operations.




www.oig.dhs.gov                            28                                OIG-13-105
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


       Management Comments and OIG Analysis

       Management Response: I&A officials concurred with Recommendation 6. In its
       response, I&A said it is working with CBP as CBP develops its program, but that it
       is too early to determine CBP’s needs. In addition, I&A is still developing the
       Watchlist Analyst Course, which will likely be programmed in FY 2014.
                            in an additional pilot Watchlist Analyst Course scheduled to
       begin in mid-September 2013; and two to four courses are planned for FY 2014.
       Upon completion of the pilot course in September 2013, I&A will work with CBP
       on a Memorandum of Understanding that develops a train-the-trainer program.

       OIG Analysis: We consider I&A’s proposed actions responsive to the intent of
       this recommendation, which is resolved and open. We will close this
       recommendation when we receive the signed Memorandum of Understanding
       between I&A and CBP.

       Management Response: I&A officials concurred with Recommendation 7. In its
       response, I&A said the WLC has drafted and implemented a standard operating
       procedure as part of its pilot DHS Watchlisting Training and Certification
       program. Included in the standard operating procedure are plans for obtaining
       watchlist analyst certification and for providing oversight of analyst compliance
       with departmental and Intelligence Community policies and procedures. I&A has
       certified watchlist analysts using this standard operating procedure; however, as
       this is a pilot program, adjustments may be made after consulting with DHS
       Watchlisting Enterprise members. In addition, the WLC has coordinated with
       NCTC to ensure that its feedback on DHS component submissions is funneled
       through the WLC.

       OIG Analysis: We consider I&A’s proposed actions responsive to the intent of
       this recommendation, which is resolved and open. During the draft report
       comment period, this recommendation was revised to require collaboration with
       CRCL, Privacy, General Counsel, and SCO. As such, documentation of this
       collaboration should be provided. In addition, the sample size and methodology
       for selecting cases the WLC will review should be addressed to ensure adequate
       oversight of cases that involve civil rights and civil liberties issues, application of
       complex legal standards, and interpretation of data in DHS data systems. Other
       issues that should be addressed are oversight of analysts who do not routinely
       submit nominations, and criteria and procedures for decertification. In its
       response, NCTC officials stated they want to partner with DHS in implementing
       this recommendation.




www.oig.dhs.gov                              29                                  OIG-13-105
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       Management Response: I&A officials concurred with Recommendation 8. In its
       response, I&A said the WLC developed, trained, and certified watchlist analysts
       via standard operating procedures for the DHS watchlisting program. Standard
       Operating Procedures: 11-Quality Assurance, a supplemental document to the
       overarching WLC standard operating procedures, contains requirements for
       watchlist analysts performing quality assurance. The WLC identified quality
       assurance requirements during its development of the DHS Watchlisting
       Program. The WLC-developed Watchlist Analyst Course included blocks of
       instruction in both its Basic and Advanced modules to emphasize standards and
       methodologies. DHS component analysts that pursue analyst certification are
       required to submit 20 terrorist nominations to the WLC for quality assurance and
       scoring on a rubric designed to emphasize departmental standards. This scoring
       rubric, and associated feedback on the submission, is returned to the analysts.
       In addition, the WLC lead visits each component and verifies processes and
       procedures prior to authorizing initiation of component nomination programs.
       The WLC lead will also make periodic site visits and verify that scheduled reviews
       are conducted.

       OIG Analysis: We consider I&A’s proposed actions responsive to the intent of
       this recommendation, which is resolved and open. To close this
       recommendation, we require additional information on the quality assurance
       review methodology. For example, we need information on quality assurance
       standards and processes for components developing and submitting
       nominations, including processes to ensure that the quality assurance process is
       independent. In addition, we need more information on the schedule and
       criteria for periodic WLC quality assurance reviews. In its response, NCTC
       officials stated they want to partner with DHS in implementing this
       recommendation, and we believe that NCTC can provide valuable suggestions on
       developing the WLC’s methodology.


       WLC Needs Sustainability and Resource Allocation Plans


       I&A officials did not estimate the additional expenses that would be incurred, or
       potential savings realized, before initiating its plan to train and certify officers
       and analysts and delegate certain authorities to them. The WLC needs to
       develop a sustainability plan to describe and prioritize its current and planned
       goals, operations, and resources. Doing so would be prudent and serve as a
       framework to support DHS’ role and contributions to the Federal Government’s
       watchlisting community.



www.oig.dhs.gov                             30                                  OIG-13-105
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


        Develop an Effective Methodology for Resource Planning



                                                      This funding augmentation ended in
        September 2012, after which I&A sustained the program within its base budget.
        During this period, I&A did not track its expenses or estimate its funding
        requirements. WLC funding continued within I&A’s base budget at a reduced
        level commensurate with available resources. At the time of our review, with
        the exception of Federal employee salaries, I&A could not itemize its expenses.
        I&A officials did not estimate the additional expenses that would be incurred, or
        potential savings realized, before initiating its plan to train and certify officers
        and analysts and delegate certain authorities to them. I&A officials said that the
        plan was developed to reduce dependence on contractors. The four full-time
        WLC contractors and two contractors who assist with watchlist analyst training
        and certification were funded from a larger I&A contract, and there was no
        dedicated funding for WLC technological enhancements or investments.

        This situation was not unique to the WLC, as few I&A programs and operations
        tracked expenses or operated with a defined budget at this organizational level
        prior to the enactment of the FY 2013 DHS appropriation. 25 I&A officials said the
        first itemized budget I&A submitted was for FY 2013 funds. WLC funding was
        included in this budget request, based on its current staffing levels, not on
        analysis of current or projected expenses. I&A officials said that they are
        committed to maintaining WLC funding, but have not planned to request
        additional National Intelligence Program funding. Determining WLC costs, based
        on more complete performance metrics for its projects and initiatives, as well as
        tracking expenses better, will enable I&A to make informed decisions about staff
        allocation and potential savings from technological enhancements and
        investments.

        The WLC would benefit from developing a sustainability plan to describe and
        prioritize its current and planned goals, operations, and resources. The WLC
        should develop a plan to manage its caseload to anticipate increases or
        fluctuations in component requests, coordination requests, or DHS intelligence
        reports available for review. It may be necessary for the WLC to restructure or
        scale back some of its projects and procedures, but several recommendations in
        this report can assist the WLC in managing its limited resources more effectively.

25
  In March 2013, after our fieldwork ended, DHS’ FY 2013 budget was approved. I&A’s approved FY 2013
budget includes dedicated funding for the WLC, and fixed amounts for such expenses as training, travel,
contracts, and supplies as well as salaries and benefits.




www.oig.dhs.gov                                   31                                      OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       Metrics designed to measure overall performance effectiveness may help the
       WLC prioritize its resources.

       More complete information about the certification program results may enable
       the WLC to determine whether extending the program to all operational
       components simultaneously is the best use of I&A resources, given operational
       component capacity, and training, quality assurance, and oversight requirements.
       The WLC can identify opportunities to streamline its internal standard operating
       procedures, while ensuring that CBP has sufficient trained and certified analysts.
       This will benefit the WLC as CBP invests in technologies to automate the
       nomination process. Each of these measures will enable the WLC to identify and
       sustain activities that provide the greatest value to DHS screening operations
       and the DHS role and contribution to the Federal Government’s watchlisting
       community.

       Recommendations

       We recommend that the Acting Under Secretary for Intelligence and Analysis:

       Recommendation #9: Develop and implement a financial plan that addresses
       funding, staffing, and resources to sustain the Watchlisting Cell’s operations for
       the next 5 years.

       Recommendation #10: Develop and implement a sustainability plan for the
       Watchlisting Cell that describes and prioritizes current and planned goals,
       operations, and resources for the next 5 years.

       Management Comments and OIG Analysis

       Management Response: I&A officials concurred with Recommendation 9. In its
       response, I&A said that in collaboration with other DHS components, I&A will
       use FY 2013 financial and throughput data for the WLC, and data gathered for
       the other recommendations in this report, to build a financial plan that
       addresses funding, staffing, and other resources to sustain the WLC’s operations
       for the next 5 years. WLC resource requirements, consistent with the predicted
       workload and ability to sustain the WLC training and certification efforts, are
       included in the FY 2014 President’s Budget.

       OIG Analysis: We consider I&A’s proposed actions responsive to the intent of
       this recommendation, which is resolved and open. We will close this
       recommendation when we receive and have reviewed the financial plan.



www.oig.dhs.gov                             32                                OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       Management Response: I&A officials concurred with Recommendation 10. In
       its response, I&A said that in collaboration with other DHS components, I&A will
       use FY 2013 financial and throughput data, as well as information gathered to
       address this report’s recommendations, to build a sustainability plan. The
       sustainability plan will describe and prioritize current and planned goals,
       operations, and resources for the next 5 years, and serve as an input to the FY
       2016 President’s Budget.

       OIG Analysis: We consider I&A’s proposed actions responsive to the intent of
       this recommendation, which is resolved and open. We will close this
       recommendation when we receive and have reviewed the sustainability plan.


       Conclusion

       The WLC has made positive contributions to the Federal Government’s
       watchlisting community. As a result of WLC initiatives, the number of
       nominations made by DHS components has increased, as has the accuracy and
       level of detail in nominations. The WLC has provided training and guidance to
       DHS operational components regarding Intelligence Community standards.
       Given the WLC’s resource constraints, and CBP NTC-P’s mission and commitment
       to technological improvements to the watchlisting process, DHS would benefit
       from delegating authority to CBP and certifying its analysts. However, the WLC
       should evaluate the effect of delegating authority and its caseload to all
       operational components. The WLC should develop performance metrics, a
       sustainability plan, and a financial plan to identify and prioritize the activities,
       projects, and initiatives that provide the greatest value to DHS screening
       operations and the Intelligence Community.




www.oig.dhs.gov                             33                                 OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

We assessed I&A’s efforts to manage and operate DHS’ WLC as part of our Fiscal Year
2012 Annual Performance Plan. Our objectives were to determine whether (1) the WLC
is timely, effective, and efficient in submitting DHS nominations to the NCTC; (2) the
information provided to external partners is complete, accurate, and timely;
(3) establishing the WLC has had an effect on the DHS component nomination process;
and (4) the WLC has developed and communicated effective policies and procedures for
coordinating nomination submissions within DHS. Because the WLC announced in July
2012 that it proposed to decentralize its watchlist nomination process, we also reviewed
whether the WLC has developed an effective process for providing the training, quality
assurance, and oversight necessary for decentralization and has developed an effective
methodology for planning and coordinating its resources.

To accomplish our objectives, we interviewed Federal officials and contractor WLC
analysts, and reviewed and analyzed related documents and data. Specifically, we
interviewed officials and staff from I&A, CBP, OPS, USCIS, TSA, Coast Guard, Secret
Service, Office of Policy’s SCO, CRCL, Privacy, and US-VISIT. We also met with NCTC and
Government Accountability Office officials to gain their perspectives on the WLC. In
addition, we reviewed and analyzed more than 125 related documents, including WLC
guidelines and procedures, and applicable laws, regulations, and policies. We also
assessed WLC resources and staffing information, as well as training and DHS’
Watchlisting Working Group materials. We also analyzed data in the WLC Tracking
Spreadsheet. We did not assess the quality of individual nominations or the
certification training.

Our review was limited to DHS’ watchlisting process. We did not review the DHS HSIC or
its decisions on intelligence policies and authorities. We did not assess the quality of
Intelligence Community guidance and procedures. We interviewed NCTC officials on the
quality and timeliness of DHS nominations, but did not review non-DHS Intelligence
Community departments or agencies, or the joint programs in which DHS participates,
such as the TSC or Joint Terrorism Task Forces. We discussed DHS data systems in this
report, but did not review these systems or the data systems used by the Intelligence
Community, such as TIDE, ACS, and the TSDB.


www.oig.dhs.gov                            34                                OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Our fieldwork began in August 2012 and concluded in December 2012. We conducted
this review under the authority of the Inspector General Act of 1978, as amended, and
according to the Quality Standards for Inspections issued by the Council of the
Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                           35                               OIG-13-105
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Appendix B
Recommendations
We recommend that the Acting Under Secretary for Intelligence and Analysis:

Recommendation #1: Develop additional performance metrics that document all
Watchlisting Cell operations accurately and demonstrate program effectiveness.

Recommendation #2: Evaluate current watchlisting processes to identify opportunities
to improve information sharing and ensure information integrity. At a minimum, this
evaluation should include measures to streamline processes that are labor intensive and
susceptible to human error.

Recommendation #3: Survey DHS operational components to determine which
components have sufficient intelligence reporting quality controls to enable the
Watchlisting Cell to reduce its duplicative quality assurance review.

Recommendation #4: Identify and incorporate procedures and capabilities to
streamline the Watchlisting Cell’s internal quality assurance process to improve
timeliness.

Recommendation #5: Survey DHS operational components to determine which
components have the operational capacity and resources to manage a watchlist
nomination caseload, and determine how the Watchlisting Cell will prioritize the
remaining caseload.

Recommendation #6: Develop and document a process with CBP that ensures CBP has
a sufficient number of trained and certified analysts to maintain CBP’s watchlisting
operations to include consideration of a train-the-trainer option.

Recommendation #7: Develop and implement, in collaboration with the DHS Offices for
Civil Rights and Civil Liberties, Privacy, General Counsel, and Screening Coordination
Office, an oversight plan for certified DHS operational component analysts conducting
watchlisting operations.

Recommendation #8: Develop and implement a quality assurance review methodology
for DHS operational components conducting watchlisting operations.

Recommendation #9: Develop and implement a financial plan that addresses funding,
staffing, and resources to sustain the Watchlisting Cell’s operations for the next 5 years.



www.oig.dhs.gov                              36                                OIG-13-105
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Recommendation #10: Develop and implement a sustainability plan for the
Watchlisting Cell that describes and prioritizes current and planned goals, operations,
and resources for the next 5 years.




www.oig.dhs.gov                             37                                OIG-13-105
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


Appendix C
Management Comments to the Draft Report

                                                                            u.s. u.". r1/01U I 0(11 . _ ..... 5«".iI1
                                                                            WIl>h;npo.. I>C 2O,S21




                                                                   8;  Homeland
                                                                   "'" Security
                                                   June 7. 20 13



           MEMORANDUM FOR,              Deborah L. Outten-Mills


           FROM ,


          SUBJ ECT,                    Response to Draft Report 01 ,.12·005.ISP·I&A, DHS '
                                       W(uchlislil1g Cel/'s Efforts 10 Coordinale Deparlmelltal
                                       Nomi/lt/lions

          The Department of Ilomcland Security Office of Intelligence and Analysis ( I&A) appreciates the
          opportunity to review and comment on the Omce of Inspector General (O IG) Draft Report OIG·
          12·005- ISP- I&A, DIlS' WOlchlisli"g Cell's t.JJorls 10 Coordinate DepclTfmental Nominariofls.
          1&/\ is activcly resolving the issues identifi ed in the draft repon, and provides the following
          responses to the recommendations in the repon.

          Recommendation II I : Develop performance metric, tbat document Wlltchlisting Cell
          openltions accuratdy Il.nd demonstrate program effectiveness.

                               '¥.~~~~;;o~Coneur. The I&A Watchlisting Cell (I&A WLC) has
                              :l!                 rales since December 20 IO. Component metrics were
                          combined        I&A WlC metri cs, however, current reponing shows production
                  by component. TSA has developed nnd shared an interim tool solution with the I&A
                  WLC, and that tool is being adaplI.:d to ensure the I&A WlC can document Watchlisting
                  Cell operations accurately and demonstrate program effectiveness. Testing and
                  implementation is anticipated to be complete by March 2014.

          Rccommendlltion #12: Eva luate current watch listin g processes to identify opportunilies 10
          iOlprove information s ha ring and ensure information Inlegrhy , At a minimum, tb ls
          evaluation should include mCllsures to streamlin e processes thllt a re labor intensive and
          susceptible to human error.

                              DRS Response: Concur. The I&A WlC, and now participating
                  Watchlisting Enterprise members, continually evaluate processes and procedures 10
                  ensure that methods in place arc cffective and efficient. In 2011 and 2012 the I&A WlC
                  worked with Ie and Departmental partners to develop requirements for a OHS
                  Wutchlisting Enterprise nomi nation tool. Earlier this year, the I&A WLC selected a




www.oig.dhs.gov                                              38                                                         OIG-13-105
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




                  nominat ion tool and has since taken steps to acquire funding fo r its development. lbe
                  tool selected is expected to eliminate most labor intensive activities, reduce thc potential
                  fo r human crror, and improvc Enterprise visibility. in the meantime, TSA has developed
                  and shared an interim tool solution with the l&A WLC that wiJl streamline some, but Dot
                  all, processes by March 2014.

           Recommendation #3: Survey DUS operational components to determ ine which co mponents
           bave .'l ufficien. intelligence r eJX)rlin g quality controls to enable th e Watchlistin g Cell 10
           reduce its duplicative q uality usuran ce r eview.

                  _           PHS R esponse: Concur . The l&A WLC has demonstrated its commitment
                  to ensunng that effective procedures are developed and communicated. Beginning in
                  September 2012 and continuing in 2013, the J&A WLC developed and delivered training
                  to Watchlisling Enterprise intelligence and vetting analysts in a Walehlist Analyst
                  Course. The training course comprised three modu les: basic watchlisting; a lrelining
                  environment; and advanced concepts. Component personnel dedicated time and effort,
                  spanning several months. towards certification. In advance of receiving their certification,
                  Component


                                                                                                     and
                                                                          W',lChlistingWorking Group, led
                  discussions on ways fo r the Enterprise 10 maximize efficiencies and avoid redundant
                  activities. As a result of this training, oversight and communication, Departmenta1
                  production increased, the I&A WLC was able to shift resources, and redundancies were
                  avoided. It is important to note that, message releaser activities are not part of the I&A
                  WLC' s quality assurance review, The I&A WLC does not have "three levels of quality
                  assurance review" as indicated in the Draft Report the training and certification program
                  has already had the effect called for in the recommendation.

                          J&A believes these actions, and clarification adt/rel·s Ihe recommendalion and
                          rl!lpt!cl/ulfy reqllesls Ihis recommellllal;on be closed.

           Recommendation #4: Identify and incorporate opportunities to streamline tbe Wateblisting
           Cell' s internal quality assurance process to impr ove timelin ess.

                  _ D HS Response: Concur. Thc I&A WLC fo llows a "two" person rule for all
                  terranst nom ination activities. This rule ensures that thc same watehlis1 analyst does not
                  perform consecutive activities in the nomination process. The nomination process is labor
                  intensive and the potential for human error is great. Because of this, it is necessary for the
                  Department to continue with its current quality assurance p rocess. The I&A WLC's
                  success, low error rate and protection of civil ri ghts and civil liberties, is directly
                  attributed to this rule. As indicated previously, development of new software tools and
                  increased Enterprise communication wiJl enable the I&A WLC, and Enterprise members,
                  to improve the timeliness of its nominations and ensure the future success of the
                  Departments watchlisting program by March 2014.




www.oig.dhs.gov                                              39                                                    OIG-13-105
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




           Recommenda tion #5: SUn'cy DHS o pera tiona l compon ents to determine which components
           have tbe operational capacity and resources to manage a watcblist nomination case load,
           a nd determine how tbe WatcblisHng Ccll will prior itize the remaining u~eloa d.

                  _ O MS Response: Concur. All DHS Watchl isting Enterprise members have
           dcmon~st and commitment to either performing or supporting watchlisting activities,
           but key to determining Enterprise capabilities is 1&A'5 understanding that watchlisting is an
           additiona l duty for




           expand advanced analysis on subjects identified in current intelligence as posing threat to the
           homeland, increase the number of encounter packages exploited, perform quality assurance on
           nominations submitted by analysts seeking watchlist analyst certification,.

                   I&A believej' Illis action, addresses th e recommelldalion and respectfully requests Ihis
                   recommendation be closed.

           Recommenda tion #6: Develop a nd document a process with CBP tha t ensures it hils a
           sufficient number of trained a nd certified an alysts to ma intain CBP's watchlisting
           opera tions.

                  ~: CODcur,l&A is working with COP as it develops its
                  program, tlut it is too carly to determine CBP's needs. In addition, I&A is still developing
                  the Watehlist Analyst Course, which will likely be programmed in FY I4. An additional
                  ~st Course is scheduled to begin in mid-September 20 13 _
                  _ _ _ _ and between two and four courses are planned for FY14. upon
                  completion of the pilot course in September 2013 , we will work with COP on anMOU
                  that develops a train the tminer progmm.

           Recommenda tion #7: Develop a nd implement a n oversight pla n for certified DHS
           operationa l component analysts conducting wa tehlisting operations.

                  ~HS Response: C oncur. The I&A WLC has drafted and implemented an
                  ~ Watchlisting Trainjng and Cenification program
                  (Attachment 1). Included in the SOP are plans for obtaining watchlist analyst certification
                  and for providing oversight of analyst compliance with Departmental and Ie policies and
                  procedures. l&A has certified watchlist analysts using this SOP, but, as this program is in
                  pilot, adjustments may be made after consulting with the DHS Watchlisting Enterprise




www.oig.dhs.gov                                            40                                                    OIG-13-105
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




                  members. In addition, the I&A WLC has coordi nated with NCTC to ensure that its
                  feedback on Component submissions is funneled through the I&A WLC.

                         I&A believes this actio"J addresses the recommendation and respect/lilly
                         reqllests this recommendotio" be clol'ed.

           Recommendation #8: Devclop and implement a qua lity assurance review methodology (or
           OIlS operational component.s conducting watcblisting operations.

                  _ n H S Response: Concur. The I&A WLC developed, trained, and certified
                  watchJi st analysts via standard operating procedures for the DHS Watchlisting program.
                  In " Standard Operating Procedures: I I-Quality Assurance" , a supplemental document to
                  the overarching program SOP, are requirements for watch list analysts performing quality
                  assurance (QA) (Altachment 2). The I&A WLC identified QA requirements during its
                  development ofthe DHS Watchlisting Program and confinned them during operations.
                  The I&A WLC-developed Watchlist Analyst Course included blocks o f instruction in
                  both its Basic and Advanced modules to emphasi7..e standards and methodologies. DHS
                  component analysts that pursue certification as watchHst analysts are required to submit
                  20 terrorist nomi nations to the r&A WLC fOf quality assurance and scoring on a rubric
                  designed to emphasize Departmental standards. This scoring rubric, and associated
                  feedback on the submission, is returned to the analysts, In addition, the I&A WLC lead
                  visits cach Component and verifies processes and procedures prior to authorizing
                  initiation o f Component nomination programs. The I&A WLC lead will also make
                  periodic site visits and verify scheduled reviews are conducted.

                          l&A believes this action. addresses the recommendation and respect/ully
                          reqllests this recommelldotion be closed.

           Recommendation #9: Develop and implement a financia l plan that addn:lilicS (unding,
           staffing, and resources to sustain the Watcb listiog C~ U 's operations (or the next 5 years.

                   DB'S Response: Concur. I&A, in collaboration with other OHS Components, will use
           FY 13 fi nancial and throughput data ror the I&A WLC and data gathered for the other
           recommendations in this report to build a financial plan that addresses fund ing, staffing, and
           other resources to sustain the I&A WLC' s operations for the next li ve years. I&A WLC
           requirements consistent with the predicted workload and ability to sustain the I&A WLC training
           and certification efforts are included in the FY 2014 President's Budget.

          . Recommendation #10: Develop and implement a sustainability plan (or the Walchlilting
            Cell tha t describes aDd prioritizes currenl and planned goals, operations, and r esources (or
            the ned 5 years.

           DMS Resnonse: Concur. I&A, in collaboration with other DHS Components, will use FY 13
           finaneia1 and throughput data for the I&A WLC and data gathered for the other
           recommendations in this report to build a sustainability plan for the J&A WLC that describes and




www.oig.dhs.gov                                           41                                                  OIG-13-105
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




           prioritizes current and plaJUled goals, operations, and resources fo r thc next five years as an input
           to the FY 20 16 Presidcnt's Budget.

           Wc look forward to contin uing Our work with you to ensure all required actions are completed.
           Should you require additional infonnation, please do not hesitate to contact me or have your slafT
           contact Keith Jones at 202-282-9553.




www.oig.dhs.gov                                              42                                                     OIG-13-105
                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security



                                                      DIRECTOR
                                      NATIONAL COUNTERTERRORISM CENTER
                                                   WashmgtOIl DC 2U505




                                                                                        JUN 0 5 1013
           Mr. Charles K. Edwards
           Deputy Inspector Gcncrul
           O ffice of the Inspector General
           Departmenl tlf Homeland Security
           Washington, DC 20528

           Dear ML Edwards:

                  On behalf of the National Counterterrorism Center (NCTC). I would like to thank the
           Department of Homeland Security' s (DHS) Office of the inSpel:LOf General (IG) ror pmviding its
           April 2013 draft report for our review and comment. We appreciatc DHS's efforts on terrorism
           watchlisting and the extensive effort you undertake to coordinate departmental nominations.

                   Our officc has reviewed your draft report, Department of Homeland Sccurity, Officc of
           the Inspector General, DHS ' Watchhsting Cell's Efforts to Coordinate Departmental
           Nominations, and its associated recommendations, NCTC appreciates the DHS efforts in
           providing a significant quantity. as well as quality, of nominations to the Tcrrorist Identity
           Datamart Environment (TIDE).

                   Overall comment: NCTC wants to cmphasize and would like to partner with DHS in
           implemcnting recommendations #2, 3, 7, and 8. While the operational DHS components are
           responsive to Watchlisting Cell requests, more examination of their process, metrics, and their
           proactive posture should be conducted to ensurc DHS information is being added to TIDE in a
           timely, effective, und streamlined process to reduces labor intensive processes susceptible to
           human errors.

           Specific Recommendations:

              •   Page 3, third paragraph - Remove the term "evidentiary" - often, this is intelligence
                  based information and not tied to evidentiary standards.

              •   Page 3, third paragraph - Request DHS add term "Addendums" in the paragraph the two
                  limes where they list terms "Modificalion/Enh(lncement",

                      o   Rationale - we need to continually usc the same tcrminology a(.TIlS~ the
                          conununity and bring terms togcther across the Intelligence and the Law
                          Enforcement communities. If the nominator tool I TIDE Online SUbmit, etc. are
                          (0 be for everyone, they need to see the lenns they expect in it.



              •   Page 5, first paragraph - Change "TSC" to "community".




www.oig.dhs.gov                                           43                                                 OIG-13-105
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




            Mr. Charles K. Edwards


              •   Page 7, first paragraph - Change "watchlis!" in the first sentence to ''TIDE'' and add the
                  words "and TIDE" to the end of the final sentence in the paragraph after "in Ihe TSDB".

              •   Page 7, first paragraph, la:;t line. Finally, DHS is rcspon:;iblc for offering redre~s, or
                  timely and fair review of complaints, to identify and correct errors in the TSDB." Add
                  "and TI DE." to Lhe em1 of this sentence.

                 We appreciate the DHS IG 's independent review of the Watchlisting Cell's processes and
          procedures and the Department's commitmenl 10 continuous impruvement through the IG
          process. NCfC values our critical relationship with DHS an,~ recognizes the strides the
          Watchlisting Cell has made: since its establishment in Decemper 2010. We look forward to a
          continued partnership in thi~ critical National Security mission.

                                                                Sincerely,




                                                                Matthew G. Olsen

          cc: Office of the Inspector General of the
                 tnlelligem.:e COIllIllunity




                                                           2




www.oig.dhs.gov                                            44                                                  OIG-13-105
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Appendix D
Roles of Components Involved In Watchlisting
U.S. Coast Guard – Screens for KSTs in crew and passenger information on vessel
manifests prior to a vessel's arrival in a U.S. port. Conducts interviews and, as
appropriate, collects biometric, biographic, and documentary evidence during migrant
interdictions at sea, vessel inspections, ship boarding, investigations, or licensing
activities.

CBP – Screens for KSTs at U.S. ports of entry, between ports of entry, and during the
review of international flight and commercial vessel manifests. Conducts interviews and
collects biometric, biographic, travel, and documentary evidence during in-person
encounters with individuals seeking to enter or depart the United States.

       CBP Office of Intelligence and Investigative Liaisons – Develops, provides,
       coordinates, and implements intelligence capabilities to support CBP, acts as
       CBP’s liaison to the Intelligence Community.

       CBP National Targeting Center – Passenger (NTC-P) – Screens passenger
       manifests and related information prior to a passenger’s departure to or from
       the United States. Analyzes, assesses, and makes determinations of travel
       suitability based on TIDE, the TSDB, and other relevant immigration, intelligence,
       and law enforcement information.

CRCL – Works with Department components and offices to ensure that civil rights and
civil liberties protections are incorporated into the Department’s information and
physical security programs, information sharing activities, and intelligence-related
programs and products.

OPS – Reviews information in DHS data systems to identify biometric, biographic, travel,
immigration, and U.S. Person status information on KSTs.

Office of the General Counsel – Implements the Department's statutory responsibilities
and policies as set forth by the Administration, the Secretary, and senior officials within
the Department.




www.oig.dhs.gov                              45                                OIG-13-105
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


ICE – Serves as the principal law enforcement arm of DHS, and screens for KSTs during
immigration and customs related investigations, security screening of visa applications,
and detentions within the interior and at the borders of the United States. Conducts
interviews and collects biometric, biographic, travel, and documentary evidence during
in-person encounters with individuals seeking to remain in the United States.

I&A – Ensures that information related to homeland security threats is collected,
analyzed, and disseminated to DHS, State, local, and tribal governments, the private
sector, and the Intelligence Community. Through the WLC, coordinates watchlisting
efforts and information sharing policies and programs.

National Protection and Programs Directorate – Protects and enhances the resilience of
the nation’s physical and cyber infrastructure.

       US-VISIT – Provides biometric identification services to Federal, State, local, and
       tribal government officials. Stores, matches, and shares fingerprints and
       photographs of KSTs in the DHS Automated Biometric Identification System
       (IDENT), and collects some international arrival and departure information.

Office of Policy’s SCO – Enhances screening and credentialing processes, programs, and
technologies to facilitate legitimate travel and trade, including redress opportunities.

Privacy Office – Assesses programs for privacy risks, and recommends privacy
protections for handling personally identifiable information to mitigate privacy risks.
Evaluates Department programs, systems, and initiatives for potential privacy impacts,
and provides mitigation strategies to reduce the privacy impact.

U.S. Secret Service – Screens for KSTs during investigative event management, such as
National Special Security Events, political events, and large-scale sporting events. May
conduct in-person interviews with international or domestic KSTs encountered in event
screening or investigations, including financial investigations.

TSA – Screens for KSTs on the aviation No Fly and Selectee lists and during the application
process for a credential or benefit in the transportation or critical infrastructure
environment. Collects biometric, biographic, and documentary evidence from
individuals applying for a TSA benefit or credential.

USCIS – Screens for KSTs who file petitions or applications for immigration benefits or
protected status. Conducts interviews and collects biometric, biographic, and
documentary evidence during in-person encounters with individuals seeking an
immigration benefit or protected status.



www.oig.dhs.gov                             46                                 OIG-13-105
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


Appendix E
Watchlisting Legal Authorities
The National Security Act of 1947 created the U.S. Intelligence Community to be a
federation of Executive Branch agencies and organizations that work separately and
together to perform intelligence activities necessary to conduct foreign relations and to
protect the national security of the United States. 26 Executive Order (E.O.) 12333, as
amended, defines the goals and direction of U.S. intelligence efforts and describes the
roles and responsibilities of individual Intelligence Community elements. 27 The
Intelligence Community is defined by the National Security Act, as amended, and E.O.
12333 to include 16 executive-level elements with oversight provided by ODNI.28 The
Homeland Security Act of 2002 created DHS, which has 2 of the 17 Intelligence
Community members: I&A and the Coast Guard.29

The Intelligence Reform and Terrorism Prevention Act of 2004 created the Director of
National Intelligence to serve as the head of the Intelligence Community.30 In
accordance with this act and E.O. 12333, the Director functions as the principal adviser
to the President and the National Security Council for intelligence matters related to
national security, and manages the National Intelligence Program budget.31 Within the
ODNI, the NCTC was established by E.O. 13354 and codified by the Intelligence Reform
and Terrorism Prevention Act of 2004 to serve as a center for joint operational planning
and intelligence. This act further directed that the NCTC will be the central and shared
knowledge bank on KSTs, and the primary organization analyzing and integrating
intelligence pertaining to terrorism and counterterrorism. 32 However, the tasks of
collecting and analyzing intelligence pertaining exclusively to domestic terrorists and
domestic counterterrorism investigations fall primarily under the purview of the FBI. 33

HSPD-6 instructed the U.S. Attorney General to establish an organization to consolidate
the government’s approach to terrorism screening and to provide for the appropriate
and lawful use of terrorist information in screening processes. To implement the

26
   50 U.S.C. § 401 et seq.

27
   Executive Order 12333, as amended [hereinafter referred to as E.O. 12333].

28
   50 U.S.C. § 401a (4) and E.O. 12333 § 3.5 (h).

29
   6 U.S.C. § 101 et seq.

30
   50 U.S.C. § 403 (b)(1).

31
   The National Intelligence Program funds intelligence activities in several Federal departments and 

agencies, including DHS and the Central Intelligence Agency. Detailed funding requests for intelligence

activities are classified. Office of Management and Budget, National Intelligence Program, Fiscal Year 

2012 Budget. http://www.whitehouse.gov/omb/factsheet_department_intelligence.

32
   50 U.S.C. § 404o (d)(1).

33
   E.O. 12333 § 2.3 (e).





www.oig.dhs.gov                                     47                                       OIG-13-105
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


directive, the U.S. Attorney General—acting through the Director of the FBI, and in
coordination with the Secretary of State, Secretary of Homeland Security, and the
Director of Central Intelligence—created the TSC. 34 HSPD-6 also requires the NCTC to
provide the TSC with access to all appropriate information or intelligence in its
possession that the TSC needs to perform its functions. 35

HSPD-11 requires a systematic approach to terrorist-related screening that optimizes
detection and interdiction of suspected terrorists and terrorist activities. HSPD-11
defines the term “suspected terrorists” as individuals known or reasonably suspected to
be or have been engaged in conduct constituting, in preparation for, in aid of, or related
to terrorism. HSPD-11 also requires that terrorist-related screening be done in a
manner that safeguards legal rights, including freedoms, civil liberties, and information
privacy guaranteed by Federal law. 36

HSPD-24 “establishes a framework to ensure that Federal executive departments and
agencies (agencies) use mutually compatible methods and procedures in the collection,
storage, use, analysis and sharing of biometric and associated biographic and contextual
information of individuals in a lawful and appropriate manner, while respecting their
information privacy and other legal rights under United States law.” HSPD-24 directs
the executive branch to integrate “biometrics to identify and screen KSTs and other
persons who may pose a threat to national security.” HSPD-24 requires agencies and
departments to make available to other agencies all biometric and associated biographic
and contextual information associated with persons for whom there is an articulable
and reasonable basis for suspicion that they pose a threat to national security, to the
extent permitted by law. 37

The Delegation to the Under Secretary for Intelligence and Analysis/Chief Intelligence
Officer vests authorities to the DHS Under Secretary for I&A, who also serves as the
Department’s Chief Intelligence Officer. The delegation enables the Under Secretary, as
the Executive Agent for DHS’s watchlisting process, to perform the duties and exercise
the authority of the Secretary required in HSPD-6 to provide a mechanism for
nominating all identifying or derogatory information about KSTs to the NCTC’s TIDE. The
duties include: “(1) establishing, managing, and overseeing a unified watchlisting
capability for the Department; (2) issuing DHS-wide terrorist watchlisting nomination
policies, procedures, guidelines, and standards consistent with Federal watchlisting


34
   HSPD-6, Directive on Integration and Use of Screening Information to Protect Against Terrorism

(September 16, 2003).

35
   HSPD-6. The NCTC was formerly known as the Terrorist Threat Integration Center.

36
   HSPD-11, Comprehensive Terrorist-Related Screening Procedures (August 27, 2004).

37
   HSPD-24, Biometrics for Identification and Screening to Enhance National Security (June 5, 2008).





www.oig.dhs.gov                                     48                                       OIG-13-105
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


guidance; and (3) representing the Secretary in all interagency forums relating to
terrorist watch listing nominations.”38

The National Strategy for Information Sharing and Safeguarding states that “[i]t is a
national priority to efficiently, effectively, and appropriately share and safeguard
information so any authorized individual (Federal, state, local, tribal, territorial, private
sector or foreign partner) can prevent harm to the American people and protect
national security. The [National] Strategy [for Information Sharing and Safeguarding]
points toward a future in which information supports national security decisionmaking
by providing the right information, at any time, to any authorized user, restricted only
by law or policy, not technology; and where safeguarding measures, to include a
comprehensive regimen of accountability, prevent the misuse of information.” 39




38
   Delegation to the Under Secretary for Intelligence and Analysis / Chief Intelligence Officer, Department 

of Homeland Security Delegation Number: 08503 (August 10, 2012).

39
   National Strategy for Information Sharing and Safeguarding, December 2012, pp. 3–4.





www.oig.dhs.gov                                      49                                        OIG-13-105
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Appendix F
DHS Data Systems Used by Watchlist Analysts
  Owner                            System                                             Function
               Advance Passenger Information System (APIS)       Receives air and sea passenger manifests
               Automated Targeting System-Passenger              Provides an enforcement and decision support tool
               (ATS-P)
               Electronic System for Travel Authorization        Screens applications from visa waiver travelers for
   CBP         (ESTA)                                            travel authorization
               Targeting Framework                               Allows users to track risk assessment effectiveness
                                                                 and create reports
               TECS                                              Collects, analyzes, and shares law enforcement
                                                                 information
               Enforce Alien Removal Module                      Tracks detained aliens, aliens in removal
               (EARM)                                            proceedings, and case histories
               Enforcement Case Tracking System                  Tracks immigration enforcement actions and cases
               (ENFORCE)
    ICE
               Intelligence Fusion System                        Provides access to TECS and ENFORCE, and
               (IFS)                                             alien encounters and arrests
               Student and Exchange Visitor Information          Tracks and monitors students, exchange visitors,
               System (SEVIS)                                    and dependents
               Secure Flight                                     Watchlist matching for flights into, out of, within,
   TSA
                                                                 and over the United States
               Central Index System                              Documents the existence and status of most aliens
               (CIS)                                             known to DHS and their alien file location
               Computer-Linked Application Information           Tracks immigrant and nonimmigrant
               Management System 3 (CLAIMS 3)                    applications/petitions
               Computer-Linked Application Information           Tracks naturalization applications
  USCIS        Management System 4 (CLAIMS 4)
               Image Storage and Retrieval System (ISRS)         Provides query and retrieval of biometric image
                                                                 sets and biographical data
               Person Centric Query System                       Aggregates information from USCIS data systems
               (PCQS)
               Refugees, Asylum, and Parole System (RAPS)       Tracks affirmative applicants for asylum status
               Arrival and Departure Information System         Matches biographic data on arrivals, departures,
               (ADIS)                                           extensions, and changes or adjustments of status to
                                                                identify foreign nationals who have overstayed
 US-VISIT                                                       authorized terms of admission
              US-VISIT Automated Biometric Identification       Enrolls and stores biometric and limited
              System (IDENT)                                    biographic information on both foreign nationals
                                                                and U.S. citizens
Source: Information Sharing on Foreign Nationals: Border Security (OIG-12-39), February 2012, Appendix
C, Database Documentation, Demonstrations.




www.oig.dhs.gov                                    50                                        OIG-13-105
                  OFFICE OF INSPECTOR GENERAL
                       Department of Homeland Security


Appendix G
Timeliness Standards




www.oig.dhs.gov                     51                   OIG-13-105
                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


Appendix H
Major Contributors to This Report
       Marcia Moxey Hodges, Chief Inspector
       Lorraine Eide, Lead Inspector
       Morgan Ferguson, Inspector




www.oig.dhs.gov                         52                   OIG-13-105
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix I
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Acting Chief Privacy Officer
Acting Under Secretary, Office of Intelligence and Analysis
Deputy Commissioner, U.S. Customs and Border Protection
Director, U.S. Citizenship and Immigration Services
Acting Officer, Office for Civil Rights and Civil Liberties
Commandant, U.S. Coast Guard
Director, U.S. Immigration and Customs Enforcement
Director, Office of Operations Coordination and Planning
Director, U.S. Secret Service
Administrator, Transportation Security Administration
Director, U.S. Visitor and Immigrant Status Indicator Technology

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner




www.oig.dhs.gov                            53                      OIG-13-105
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Office of the Director of National Intelligence

Director, National Counterterrorism Center
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                              54                         OIG-13-105
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
